 DOE/IG-0548




                                 PERSONNEL SECURITY
                                CLEARANCES AND BADGE
          AUDIT                  ACCESS CONTROLS AT
         REPORT               DEPARTMENT HEADQUARTERS




                                      MARCH 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                       U. S. DEPARTMENT OF ENERGY
                             Washington, DC 20585

                                 March 26, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "Personnel Security Clearances and
                        Badge Access Controls at Department Headquarters"

BACKGROUND

Security clearances are granted to ensure that only those who have successfully passed a
background investigation and have a need to access classified information are actually authorized
such access. Security badges provide the physical evidence that a clearance has been granted, and
are used by the Department of Energy (Department) to control access to classified information as
well as to Departmental facilities and buildings. Currently, about 11,000 badges are issued to
Federal and contractor employees working in Department Headquarters. Approximately 4,900 of
these badges have been issued to individuals who have security clearance to access classified
matter and the rest were issued for "Building Access Only" to individuals who do not require a
security clearance.

Data pertaining to security clearances and badges for individuals employed at Department
Headquarters, both Federal and contractor, are maintained in two separate information systems
managed by the Office of Security's Headquarters Security Operations. The Central Personnel
Clearance Index system tracks active security clearances, while the Badge Control System tracks
all employees' badge levels, expiration and recovery dates, and employer information. An
important function of the Badge Control System is to assist security guards in determining an
individual's employment status, badge level, and access authorization in the event that the
employee arrives at work without a badge.

In our Special Report on Management Challenges at the Department of Energy (DOE/IG-0538,
December 2001), we noted that maintaining adequate security and safety continue to be among
the most difficult challenges facing the Department and we identified specific security controls
that needed to be strengthened. You also underscored the importance of observing the highest
standards of security in your October 2001 message on the Department's mission and priorities.
In this vein, the objective of our audit was to determine whether the Department terminated
unneeded security clearances and recovered unneeded badges.

RESULTS OF AUDIT

Our limited review disclosed that, due to process problems with the Department's clearance and
badging controls, unauthorized individuals could gain access to Department Headquarters.
Consequently, rather than expand our review to more precisely gauge the scope of the problem,
we truncated our audit and elected to immediately inform management of our findings. Of 147
Federal and contractor employee records selected for initial review at Headquarters, in nine
cases, despite discontinued employment, the Department had either not terminated the
employees' clearances or had not recovered their badges.

While we found no instances of inappropriate access, these errors, which could have allowed
unauthorized individuals easy entry to Department facilities, occurred because program offices
did not always provide necessary employment information to Headquarters Security Operations.
Additionally, program offices did not always hold contractors accountable for adherence to
Department policy regarding clearance termination and badge recovery. Any delay in
terminating unwarranted clearances or badges raises concerns regarding the vulnerability of
Department facilities, property, classified materials, and the safety of it workers.

We recommended that the Office of Headquarters Security Operations expeditiously review, and
correct as necessary, all data in the Department's clearance and badge control systems. We also
recommended a number of system enhancements to improve communication among program
offices, Headquarters Security Operations, and the Department's clearance-related information
systems.

MANAGEMENT REACTION

The Office of Headquarters Security Operations agreed with our recommendations and planned
to take corrective actions.

Attachment

cc:   Administrator, National Nuclear Security Administration
      Under Secretary for Energy, Science and Environment
      Chief of Staff
      Director, Office of Security
PERSONNEL SECURITY CLEARENCES AND BADGE ACCESS
CONTROLS AT DEPARTMENT HEADQUARTERS

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 2


               Personnel Security Clearances and Badge Access Controls

               Details of Finding .......................................................................4

               Recommendations ....................................................................8

               Comments ..................................................................................9


               Appendices

               Scope and Methodology...........................................................10

               Prior Reports ............................................................................11
OVERVIEW

INTRODUCTION AND   Personnel security measures ensure that individuals have access
OBJECTIVE          authorization commensurate with their official duties. Building access
                   is granted to Federal and contractor employees to enable them to enter
                   Department of Energy (Department) facilities to perform their work.
                   Access to classified matter is granted to employees only when their
                   official duties require such access, and only when it has been
                   determined that such access is consistent with national interests.
                   Further, the Department should maintain the numbers and types of
                   access authorizations at the minimum levels necessary.

                   Access to facilities and classified information is controlled with security
                   badges. According to an official of the Office of Security's
                   Headquarters Security Operations, Department Headquarters currently
                   has about 11,000 badges issued to Federal and contractor employees.
                   Approximately 4,900 of the badges have been issued to individuals who
                   have a security clearance to access classified matter. The Department
                   grants three primary types of security clearances and/or badges:

                   •   "Q" clearances permit access to top secret restricted and formerly
                       restricted data, and national security information.

                   •   "L" clearances permit access to confidential restricted data, secret
                       formerly restricted data, and national security information.

                   •   "Building Access Only" (BAO) badges are issued to individuals
                       who do not require a security clearance. The BAO badge permits
                       access to Departmental facilities.

                   Data pertaining to security clearances and badges for individuals
                   employed by the Department and its contractors are maintained in two
                   separate information systems managed by Headquarters Security
                   Operations. The Central Personnel Clearance Index (CPCI) system
                   tracks security clearance information such as clearance status, level, and
                   investigation dates. The Security Badge Control System (Badge
                   Control System) tracks individual badge levels, expiration and recovery
                   dates, and employer information. The Badge Control System contains
                   information on all employees regardless of their badge level. The guard
                   force uses this system to confirm badge status and level for anyone who
                   comes to work without a badge.

                   We initiated this review to determine whether the Department
                   terminated unneeded clearances, recovered unneeded badges, and
                   conducted timely reinvestigations. Our limited review of the timeliness

Page 1                                                         Introduction and Objective
                  of the reinvestigation process found no significant backlogs. This
                  report, therefore, focuses on whether the Department terminated
                  unneeded clearances and recovered unneeded badges.


CONCLUSIONS AND   Of 147 Federal and contractor employee records judgmentally selected
OBSERVATIONS      for initial review at Department Headquarters, we determined that in
                  nine cases, the Department had either not terminated the employees'
                  clearances or had not recovered their badges. In three of these
                  instances, the Department's data systems indicated that the individuals
                  held Q clearances, the highest clearance granted, even though all three
                  had no continuing business with the Department. The remaining six
                  were shown as having badges granting access to Department facilities
                  even though they, too, were no longer employed by the Department or
                  its contractors.

                  These errors that, in essence, could have allowed unauthorized
                  individuals easy access to Department facilities, occurred because
                  program offices did not always provide necessary employment
                  information to Headquarters Security Operations. Additionally,
                  program offices did not always hold contractors accountable for
                  adherence to Department policy regarding clearance termination and
                  badge recovery. When clearances and badges are not promptly
                  terminated, risks to Departmental facilities, property, classified
                  materials, and the safety of its workers are increased.

                  Our initial review disclosed that unauthorized individuals could gain
                  access to Department Headquarters. We, therefore, elected to inform
                  management of our findings immediately, rather than to expand our
                  review to more precisely gauge the scope of the cited problems. We are
                  recommending that the Office of Headquarters Security Operations
                  expeditiously review, and correct as necessary, all data in the
                  Department's clearance and badge control systems. We are also
                  recommending a number of system enhancements to improve
                  communication among program offices, Headquarters Security
                  Operations, and the Department's clearance and badging information
                  systems.

                  Previous Office of Inspector General reports have also cited security
                  control weaknesses. In our 1986 report on Retention of Security
                  Clearances at Department of Energy Headquarters (DOE/IG-0228,
                  July 1986), we noted that security clearances for more than one-third of
                  individuals no longer affiliated with the Department had not been
                  terminated and responsibility for clearance termination was not clearly

Page 2                                                  Conclusions and Observations
         defined. Based on that finding, we recommended that the Department
         1) develop an interface between the personnel and security automated
         systems to identify individuals with security clearances who have
         terminated employment or transferred; 2) clarify program office
         responsibilities, and the procedures and timeframe for terminating
         clearances; and 3) coordinate with the Department's Procurement office
         to ensure that standard provisions on clearances are included in
         contracts and that procedures are developed for terminating clearances
         as a part of the contract close-out process. Although certain corrective
         actions were taken, some of the recommendations in the 1986 report
         still have not been fully implemented. Complete implementation of
         these recommendations may have prevented some of the examples
         disclosed during our current audit.

         More recently, we reported in 1993 that clearances were granted to
         individuals who did not require access to classified material, and that
         there were delays in clearance requests and reinvestigations
         Department-wide, although Headquarters' processing times were found
         to be within prescribed goals (Review of DOE's Personnel Security
         Clearance Program, DOE/IG-0323, March 1993). A 1999 review of
         the Department's audit follow-up process disclosed that although the
         total number of clearances had been reduced, there were still delays in
         processing clearance requests and reinvestigations Department-wide
         (The U.S. Department of Energy's Audit Follow-Up Process, DOE/IG-
         0447, July 1999). Appendix 2 lists additional related audit reports.

         Management should consider the issues identified in this report when
         preparing its year-end assurance memorandum on internal controls.



                                                      (Signed)
                                              Office of Inspector General




Page 3                                         Conclusions and Observations
PERSONNEL SECURITY CLEARANCES AND BADGE ACCESS
CONTROLS

Clearance Termination   From lists of contractor and Federal employees provided by the
and Badge Recovery      Department's Corporate Human Resource Information System, the
                        Badge Control System, and certain program offices, we selected
                        clearance and badge records for 35 contractor and 112 former Federal
                        employees for initial review. As illustrated in the following table, we
                        confirmed a total of nine discrepancies where former Federal and
                        contractor employees, although no longer associated with the
                        Department, remained active in the CPCI and/or the Badge Control
                        System, permitting potential access to Department facilities and
                        sensitive information.


                                          Contractor and Federal Employees


                                                                   Type of Discrepancy *
                            No. of
                         Employees          No. of
                         Selected for   Discrepancies Active Q Active Q in Active BAO Badges
                           Review           Noted     Clearances Badge      in Badge     Not
                                                        in CPCI  System      System   Recovered

                        Contractor-35         6              3            2            3            5


                         Federal-112          3                           1            2            3



                        *Some employees had more than one type of security clearance/badge discrepancy.

                        As illustrated above, the Department's data systems showed that six
                        former contractor employees inappropriately retained Q clearances,
                        security badges, or both. Three of these individuals were listed as
                        holding Q clearances, which can allow the highest level of access to
                        facilities and information the Department grants. We were able to
                        contact two of the Q-cleared former contractors and confirmed that
                        neither had any continuing business with the Department. One had
                        been retired for over a year and reported to us that he still had his
                        Q badge. The other individual confirmed that he had no need for any
                        further contact with or access to the Department. This individual also
                        said he had returned his badge to the program office for which he
                        previously worked. However, according to the Badge Control System,
                        the badge had not been recovered.




Page 4                                                                              Details of Finding
                        Additionally, three former contractor employees were listed as having
                        active BAO badges that allowed access to Department buildings. For
                        each of these instances, we confirmed that the individuals were no
                        longer working for the program office listed in the Badge Control
                        System and that badges had not been returned to Headquarters Security
                        Operations.

                        From our selection of 112 former Federal employees, we found one
                        instance where an individual retired for more than a year was listed in
                        the Badge Control System as having a valid Q badge. The program
                        office confirmed that, after the employee had retired, they did not
                        properly return the badge to Headquarters Security Operations. In two
                        other cases, terminated Federal employees were listed as having valid
                        BAO badges.

                        It should be noted that erroneous information in either the CPCI or the
                        Badge Control System could result in unauthorized access to
                        Department facilities and information. Even without a badge, a person
                        who is listed in the Badge Control System can gain access to a
                        Department facility. We confirmed this by reviewing procedures with
                        security personnel who told us that if a person presented a driver's
                        license or similar identification and was listed in the Badge Control
                        System, he or she would be issued a temporary badge and granted
                        immediate access. Thus, the accuracy of both the CPCI and the Badge
                        Control System is a critical security control.

                        Based on the discrepancies we found in our initial selection, our
                        analysis of program office and Headquarters Security Operations
                        procedures, and our follow-up discussions with former employees, we
                        concluded that at least some unauthorized individuals could have
                        gained access to the Department had they chosen to do so. While we
                        have no indication that any unauthorized access actually occurred, we
                        elected to inform management of our findings immediately, rather than
                        to expand our review to more precisely gauge the scope of the cited
                        problems. Headquarters Security Operations agreed to eliminate the
                        discrepancies in the CPCI and Badge Control Systems based on this
                        finding.


Clearance Termination   Chapters IV and X of the Headquarters Facilities Master Security Plan
and Badge Recovery      (Plan) outline the procedures and program office responsibilities for
Procedures              Department security clearances and badges required for facility access.




Page 5                                                                       Details of Finding
                     Chapter IV states that Department security badges are the property of
                     the Government and must be returned to the badging office whenever
                     an individual is transferred, terminates employment, or otherwise no
                     longer requires the badge. Chapter X requires program offices,
                     including managers, security officers, and Contracting Officers'
                     Representatives, to ensure that security clearances for those individuals
                     no longer requiring an access authorization are terminated. A Security
                     Termination Statement must be signed by both the individual who no
                     longer requires access authorization and the program office
                     representative. For departing Federal employees, an Employee
                     Separation Clearance form is used to ensure that all property, including
                     security badges, is returned to the Department. Specific program office
                     responsibilities in Chapters IV and X state that program offices are
                     responsible for ensuring that clearances are terminated and badges are
                     returned to the badge office. In addition, both chapters state that
                     contractors that fail to return Department badges from their employees
                     who no longer require the badge could be subject to administrative
                     action that may adversely impact the contract.

                     A Secretarial Policy Statement on security incidents and violations was
                     issued on June 17, 1999, to improve individual and management
                     contract accountability. Specifically, it enforces a "zero tolerance"
                     policy for Federal and contractor employees who disregard security
                     policies and requirements contained in the Plan. In addition, it states
                     that contracts must require compliance with Department Order 470.1,
                     Safeguards and Security Program, and that contract clauses are to be
                     developed to put performance fees at risk when contractors do not
                     achieve satisfactory ratings in accordance with the Plan.


Information          Clearances were not terminated and badges not recovered because
Exchange and         program offices did not always provide information regarding
Contract Oversight   employee status to Headquarters Security Operations. In addition,
                     program offices did not impose contractual controls that would have
                     ensured proper security performance.

                                         Information on Employee Status

                     Our audit disclosed an absence of up-to-date information regarding
                     some contractor employees. According to Headquarters Security
                     Operations, the security data systems were not updated because
                     program offices did not provide information on employee status. Even




Page 6                                                                    Details of Finding
         within program offices, information was not always communicated to
         those who needed it. Contracting Officers' Representatives told us that
         contractors do not always notify program offices when an individual's
         employment status changes. As a consequence, neither the Contracting
         Officer's Representative nor the security officer can initiate appropriate
         action to recover the badge, terminate the clearance, or inform
         Headquarters Security Operations of the change. Furthermore,
         departing contractor employees are not required to complete an
         Employee Separation Clearance form, which would facilitate recovery
         of the badge. The result is that some contractor employees leave but
         necessary changes are not made to the CPCI and the Badge Control
         System.

         As part of our analysis, we asked security officers representing 10
         program offices to provide a list of contractor employees who
         terminated their employment during Fiscal Year (FY) 2001. After
         numerous unsuccessful attempts to obtain the data, we concluded that
         the information was not readily available. Only the Offices of
         Environmental Management, Science, and Defense Programs provided
         lists that were generated from their own databases. However, Defense
         Programs and Environmental Management indicated that their lists
         could be incomplete because they did not include contractor employees
         who may have terminated without their knowledge. One program
         office told us that it could not account for contractor employee status.
         Without such accountability, program offices will continue to be unable
         to provide up-to-date information on security clearances and badges.

         With regard to two of the three former Federal employees noted as
         exceptions, program offices had not provided updated information to
         Headquarters Security Operations. Furthermore, there was no interface
         between the Corporate Human Resource Information System, which
         tracks Federal employment status, and the Headquarters Security
         Operations' CPCI and Badge Control Systems. This interface could
         have provided Headquarters Security Operations with information
         about the terminations as soon as it was entered into the Corporate
         Human Resource Information System.

                                   Contractual Controls

         Program offices did not always impose controls to hold the contractors
         and their employees accountable for incomplete security procedures




Page 7                                                         Details of Finding
                        and unreturned badges. Only one program office we reviewed, for
                        example, associated negative performance fees with unreturned badges.
                        The security officer in this case told us that he has no problems getting
                        the badges back and has, in fact, recovered 100 percent of badges from
                        terminated contractor employees. If contractor security performance is
                        not linked to contract performance fee in this manner, there may not be
                        sufficient incentive for contractors to provide the Department with
                        essential employee status information in order for security procedures
                        to take place.


Risks of Unauthorized   National Security Information, various types of classified and
Access                  unclassified property, and the security of Department workers are at
                        risk if security controls are not rigorously enforced. The lapses cited in
                        this report could have allowed unauthorized individuals entry into
                        Department buildings and, within those buildings, access to areas
                        containing classified information. Information and property that is
                        integral to our national security could, therefore, have been at risk. The
                        possibility that disgruntled former employees could gain easy access
                        with the intent to disrupt operations, obtain information, or cause harm
                        to Department property or employees, must also be seriously evaluated
                        and minimized.


RECOMMENDATIONS         We recommend that the Director, Office of Headquarters Security
                        Operations, work with Headquarters program offices and the Office of
                        Human Resources Management to:

                        1. Evaluate and correct as necessary information on all Headquarters
                           employees in both the CPCI and the Badge Control System to
                           ensure only currently employed individuals have active status.

                        2. Develop an interface between systems managed by Headquarters
                           Security Operations that track clearances and security badges, and
                           the Office of Human Resources Management system that tracks
                           employment status.

                        3. Ensure that program offices receive notice when contractor
                           employees leave, and return badges recovered from these
                           employees to Headquarters Security Operations.




Page 8                                                                       Recommendations
                   4.   Establish a policy to strengthen contractual requirements by:

                        a. Requiring contractors to hold formal exit briefings for their
                           terminating employees; and,
                        b. Placing performance fees at risk on fixed-price and
                           performance-based contracts.


MANAGEMENT         The Office of Headquarters Security Operations concurred with our
COMMENTS           recommendations and planned to take corrective actions to address the
                   conditions cited in this report.


AUDITOR COMMENTS   Management actions were responsive to the recommendations.




Page 9                                                                         Comments
APPENDIX 1

SCOPE         The audit was performed from October 2001 through January 2002 at
              Department of Energy Headquarters in Washington, DC and
              Germantown, MD. The universe of our Federal employee sample
              consisted of individuals terminating their employment in FY 2001. The
              universe of our contractor sample consisted of a judgmental sample of
              active contractor employees employed during 2001.

METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed lists of contractor and Federal employees provided by the
                  Department's Corporate Human Resource Information System, the
                  Badge Control System, and certain program offices.

              •   Reviewed information contained in both the Badge Control System
                  and the Central Personnel Clearance Index.

              •   Interviewed officials from the Office of Headquarters Security
                  Operations and selected program office security officers to
                  understand roles, responsibilities, and procedures.

              •   Interviewed contractors to ascertain status of employees.

              •   Interviewed terminated employees to ascertain whether they
                  possessed badges.

              •   Tested the Badge Control System to ascertain if a terminated
                  individual could gain access to the facilities.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. Because of
              problems with data inputs, we questioned the validity of computer-
              processed data.

              Management waived an exit conference.




Page 10                                                     Scope and Methodology
APPENDIX 2

                                            PRIOR REPORTS


 OFFICE OF INSPECTOR GENERAL REPORTS

 •   Retention of Security Clearances at Department of Energy Headquarters, (DOE/IG-0228, July 9,
     1986). Security clearances for more than one-third of individuals no longer affiliated with the
     Department had not been terminated and responsibility for clearance termination was not clearly
     defined. It was recommended that (1) data in the Security information system be corrected, (2)
     procedures be implemented to recertify clearances, (3) interfaces be developed between personnel
     and security systems to identify individuals with clearances who have terminated, (4) the request
     for clearance form be modified, (5) clearance provisions be included in contracts and procedures
     developed to terminate clearances during contract closeout, and (6) responsibilities and
     timeframes be outlined in DOE Order 5631.2A.

 •   Review of DOE's Personnel Security Clearance Program, (DOE/IG-0323, March 1993). The
     Department granted clearances to individuals who did not specifically require access to classified
     material. The field offices did not follow procedures for clearance terminations, justifications,
     and recertifications. Delays were also found in processing clearance requests and reinvestigations
     Department-wide, although Headquarters' times were within the goal of 90 days. It was
     recommended that blanket clearances be discontinued, a critical review of clearance justifications
     be performed, numbers and levels of clearances be reduced, standards be developed for cases
     containing derogatory information, and cases be adjudicated within 90 days.

 •   The U.S. Department of Energy's Audit Follow-up Process, (DOE/IG-0447, July 1999). The
     Department reduced clearances by 32 percent by eliminating blanket clearance policies and
     scrutinizing requests. Reduction was also attributed to decreased employment level. There was
     limited success in timely processing of clearance requests and reinvestigations. It was
     recommended that an action plan be developed to decrease backlogs and delays and that an
     assessment be performed on decentralized funding for security clearances.

 GENERAL ACCOUNTING OFFICE (GAO) REVIEWS

 •   Key Factors Underlying Security Problems at DOE Facilities, (GAO/T-RCED-99-159, April 20,
     1999). Over the last 20 years, GAO has continually cited weaknesses in security at the
     Department. Testimony before the Subcommittee on Oversight and Investigations, Committee on
     Commerce, House of Representatives, provides an overview of GAO's work on various DOE
     security areas. In particular, problems in the personnel security area date back to the early 1980s.
     Problems were noted such as performing timely security investigations, inaccuracies in the
     security clearance database, and employees with clearance badges without active clearances.




Page 11                                                                                       Prior Reports
                                                                             IG Report No. : DOE/IG-0548

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
